               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




  Postal Vehicle Service Transportation
   Routes – Baltimore Processing and
           Distribution Center
              Audit Report




                                              July 25, 2011

Report Number NL-AR-11-004
                                                                        July 25, 2011

                                           Postal Vehicle Service Transportation
                                             Routes – Baltimore Processing and
                                                             Distribution Center

                                                      Report Number NL-AR-11-004




IMPACT ON:                                PVS schedules effective, including
Baltimore, MD Processing and              conducting schedule and vehicle
Distribution Center (P&DC). Savings in    utilization reviews. Verify elimination of
personnel costs, fuel costs, and tort     the 11,789 workhours identified in our
claims.                                   audit and already agreed to by
                                          management from the PVS trip
WHY THE OIG DID THE AUDIT:                schedules. Reassess the remaining
Our objective was to determine whether    7,273 workhours we identified for
selected Postal Vehicle Service (PVS)     removal. Eliminate 24 trips from
operations were effective and             highway contracts identified in our audit
economical.                               and already agreed to by local and area
                                          management. Ensure that management
WHAT THE OIG FOUND:                       re-emphasize guidance to drivers
The Baltimore P&DC could more             enforcing load restraint policies for PVS
effectively manage PVS transportation     trips and provide oversight of load
processes and schedules, thereby          restraint processes.
reducing driver workhours as well as
associated fuel use and damage claims.    WHAT MANAGEMENT SAID:
Additionally, management could            Management agreed with our findings
eliminate or consolidate underutilized    and recommendations. Fleet
trips from highway contract routes        management procedures were reissued.
(HCRs) that serve the Baltimore P&DC.     Management has revised PVS
Once this occurs, we estimate the         schedules to capture the 11,789
Postal Service could save about $8.2      workhours savings already agreed on
million over 10 years. The reduction in   and agreed to reassess the additional
PVS and HCR transportation fuel use       7,273 scheduled workhours identified in
would also help achieve the Postal        our report. In addition, during the audit,
Service’s fuel consumption goals. We      management reissued the standard
also observed that PVS drivers were not   operating procedure for properly
consistently restraining mail and         restraining mail containers and held
equipment for transportation as           service talks on the subject.
required.

WHAT THE OIG RECOMMENDED:
We recommended the Baltimore P&DC         Link to review the entire report.
managers follow prescribed fleet
management procedures for making
July 25, 2011

MEMORANDUM FOR:            DAVID C. FIELDS
                           VICE PRESIDENT, CAPITAL METRO AREA OPERATION

                               E-Signed by Robert Batta
                             VERIFY authenticity with e-Sign




FROM:                      Robert J. Batta
                           Deputy Assistant Inspector General
                            for Mission Operations

SUBJECT:                   Audit Report – Postal Vehicle Service Transportation Routes
                           – Baltimore Processing and Distribution Center
                           (Report Number NL-AR-11-004)

This report presents the results of our audit of the Baltimore, MD Processing and
Distribution Center’s Postal Vehicle Service transportation routes (Project Number
11XG017NL000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Jody J. Troxclair, director,
Transportation, or me at 703-248-2100.

Attachments

cc: Patrick R. Donahoe
    Megan Brennan
    David C. Williams
    Cynthia F. Mallonee
    Pamela S. Grooman
    Corporate Audit and Response Management
                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Excess Workhours and Associated Cost Reductions ...................................................... 1

Other Matters – Cost Reductions for HCRs .................................................................... 2

Other Matters – Safety Concerns .................................................................................... 3

Recommendations .......................................................................................................... 4

Management’s Comments .............................................................................................. 5

Evaluation of Management’s Comments ......................................................................... 5

Appendix A: Additional Information ................................................................................. 6

   Background ................................................................................................................. 6

   Objectives, Scope, and Methodology .......................................................................... 6

   Prior Audit Coverage ................................................................................................... 8

Appendix B: Monetary Impact ....................................................................................... 10

Appendix C: Management’s Comments ........................................................................ 11
Postal Vehicle Service Transportation Routes –                                                         NL-AR-11-004
 Baltimore Processing and Distribution Center



Introduction

This report presents the results of our audit of the Baltimore Processing and Distribution
Center’s (P&DC’s) Postal Vehicle Service (PVS) transportation routes (Project Number
11XG017NL000). Our objective were to determine whether selected PVS vehicle
operations were effective and economical. This report is one in a series of reports
responding to a request from a former U.S. Postal Service vice president, Network
Operations, for audit work in this area. See Appendix A for additional information about
this audit.

Postal Service transportation includes both nationwide network transportation between
cities and major facilities as well as delivery transportation between local Post Offices
and neighborhood delivery and pickup points. Network transportation that uses Postal
Service vehicles and employees is called PVS. Management typically assigns PVS
vehicles and personnel to Postal Service network facilities, such as network distribution
centers or P&DCs in or near metropolitan areas. PVS operations are normally
conducted within 50 miles of the 154 Postal Service facilities with PVS operations. PVS
drivers travel about 150 million miles every year. Because PVS operations are local,
district, area, and headquarters transportation officials manage them at the facility level.

Conclusion

The Baltimore P&DC could more effectively manage PVS transportation processes and
schedules, thereby reducing driver workhours as well as associated fuel use and
damage claims. Additionally, management could eliminate or consolidate underutilized
trips from highway contract routes (HCRs) 1 that serve the Baltimore P&DC. Once this
occurs, we estimate the Postal Service could save about $8.2 million over 10 years,
which is an average of $820,000 per year. The reduction in PVS and HCR
transportation fuel use would also help achieve the Postal Service’s fuel consumption
goals. Finally, we observed PVS drivers not consistently restraining mail and equipment
for transportation as required.

Excess Workhours and Associated Cost Reductions

Baltimore P&DC officials were not effectively managing PVS transportation processes
and schedules as evidenced by unassigned driver time and underutilized trips. We
found that PVS schedules included:

   Unassigned time when drivers were not needed for a specific trip or related activity.
   Underutilized trips that management could have consolidated.



1
  Although our focus was on PVS transportation, we also reviewed HCR transportation as part of overall facility
transportation needs. We identified HCR routes that were underutilized and included the results in this report.
                                                         1
Postal Vehicle Service Transportation Routes –                                                      NL-AR-11-004
 Baltimore Processing and Distribution Center


These issues occurred because managers did not always conduct PVS schedule
reviews as required. 2 In addition, given the dynamic and ever-changing transportation
environment and the need to maintain the effectiveness and efficiency of PVS
operations, the Postal Service requires management to perform vehicle utilization
reviews at least annually to determine vehicle need. According to Baltimore P&DC
management, they have not performed this type of review since 2008.

We concluded that management could remove 19,062 excess workhours from existing
PVS schedules and reduce related fuel costs and damage claims, thereby saving the
Postal Service about $725,375 per year3 as reflected in Table 1.

                 Table 1. PVS Potential Savings – Funds Put to Better Use
                           (Personnel, Fuel, and Damage Claims)

                         FY 2011 4          FY 2012           10-Year Total
    Cost Category          Total            (Annual)          (FYs 2011 to
                        (Phased In)           Total              2020)                 Percentage
Personnel                  $209,539         $834,557              $7,121,257                 98.2%
Fuel                          8,592             8,528                 83,095                  1.1%
Damage Claims                 5,286             5,206                 49,395                  0.7%
Total                      $223,417         $848,291             $7,253,747 5               100.0%

Throughout our audit, we coordinated proposed schedule realignments with local
transportation managers. The managers reviewed each proposal with their own
assessment of operational requirements, and we discussed any differences.

Other Matters – Cost Reductions for HCRs

The Baltimore P&DC could improve the effectiveness of scheduled HCRs by cancelling
24 trips. The Postal Service could eliminate these trips without negatively affecting on-
time service, because trip mail volume is low and mail could be consolidated on other
trips. This occurred because management did not follow prescribed highway contract
procedures,6 including continued monitoring and adjustment of trips based on need.

We concluded that management could eliminate or consolidate underutilized trips and
save more than $986,859 over the term of existing contracts as detailed in Table 2.


2
  Handbook PO-701, Fleet Management, Chapter 23, March 1991, requires PVS operations to perform vehicle
utilization reviews at least annually to maintain effectiveness and efficiency.
3
  Funds that could be used more efficiently by implementing recommended actions.
4
  The FY 2011 figure is conservative to allow for phase-in of workhour reductions during the year.
5
  Impact Category: Funds put to better use are funds that could be used more efficiently by implementing
recommended actions.
6
  Postal Service Handbook (M-22) Dispatch and Routing Policies, Section 214 states the local networks manager "is
responsible for working with the area offices to develop local networks composed of postal-owned (Postal Vehicle
Service) and -contracted transportation services to ensure efficient and timely service to the processing and
distribution service areas."




                                                        2
Postal Vehicle Service Transportation Routes –                                                                NL-AR-11-004
 Baltimore Processing and Distribution Center


    Table 2. HCR Potential Savings for Cancelled Trips – Funds Put to Better Use
                                (Contract and Fuel)

        Recommended                   Contract          Number                 Estimated
          Reduction                   Number            of Trips               Savings 7
                                       21015                4                  $218,727
                                       21033               12                        517,413
          Agreed to by
                                       21035                2                         60,630
          Management
                                       21040                2                         69,999
                                       210L1                4                        120,090
      Total                                                24                       $986,859

Other Matters – Safety Concerns

We observed mail and equipment being transported on Baltimore P&DC PVS
transportation that was not consistently restrained according to established safety
policies. 8 See Illustration 1. We found 55 percent of loads with single- rather than the
required double-restraints at the ends of their loads, which is not in accordance with
established safety policies. We concluded that local officials were not enforcing the
safety policy as required. Improperly restrained Postal Service mail and equipment can
lead to accidents, damage to property, undue liability, and unwarranted costs for the
Postal Service.

             Illustration 1. Improperly Restrained Mail at Baltimore P&DC PVS




                                     Source: OIG. Single-strap usage observed
                                    during Tour 1 dispatch at the Baltimore P&DC
                                             on Tuesday, March 1, 2011.




7
  Estimated savings are based on the remaining value of existing contracts and are negotiated between the Postal
Service and their suppliers.
8
  Logistics Order LO200407, dated April 16, 2004, prescribes policies for safe loading and proper restraint during
transportation of mail to facilities. In particular, the order states, “All vehicles transporting containers and pallets must
have the load secured with two restraining devices approximately every ten (10) feet.”


                                                              3
Postal Vehicle Service Transportation Routes –                                 NL-AR-11-004
 Baltimore Processing and Distribution Center


Recommendations

We recommend the vice president, Capital Metro Area Operations:

1. Ensure that the Baltimore Processing and Distribution Center managers follow
   prescribed fleet management procedures for making Postal Vehicle Service
   schedules effective, including conducting schedule and vehicle utilization reviews.

2. Verify elimination of the 11,789 workhours identified in our audit from the Postal
   Vehicle Service trip schedules.

3. Reassess the remaining 7,273 workhours and eliminate the workhours as indicated
   by the reassessment, or document the reasons for retaining them.

4. Eliminate from highway contracts 24 trips identified in our audit.

5. Ensure that the Baltimore Processing and Distribution Center management
   re-emphasizes guidance to drivers enforcing load restraint policies for Postal Vehicle
   Service trips and provides oversight of load restraint processes.




                                                 4
Postal Vehicle Service Transportation Routes –                              NL-AR-11-004
 Baltimore Processing and Distribution Center



Management’s Comments

Management agreed with our findings and recommendations. Management reissued
the Fleet Management Handbook to all area executives reminding them of their
responsibilities with PVS operations. In addition, management revised PVS schedules
to capture the 11,789 workhours savings already agreed upon and provided schedule
details showing those reductions. Management also agreed to reassess the additional
7,273 scheduled workhours recommended for reduction by August 25, 2011. Finally,
during the audit, management reissued the standard operating procedure for properly
restraining mail containers and held service talks on the subject. See Appendix C for
management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations in the report and the corrective actions
should resolve the issues identified in the report.

The OIG considers recommendations 1 through 4 significant, and therefore requires
OIG concurrence before closure. Consequently, the OIG requests written confirmation
when corrective actions are completed. These recommendations should not be closed
in the Postal Service’s follow-up tracking system until the OIG provides written
confirmation that the recommendations can be closed.




                                                 5
Postal Vehicle Service Transportation Routes –                                   NL-AR-11-004
 Baltimore Processing and Distribution Center


                              Appendix A: Additional Information

Background

Postal Service transportation includes both nationwide network transportation between
cities and major facilities, as well as delivery transportation between local Post Offices
and neighborhood delivery and pickup points. Network transportation that uses Postal
Service vehicles and employees is called PVS. Management typically assigns PVS
vehicles and personnel to Postal Service network facilities, such as network distribution
centers or P&DCs in or near metropolitan areas. PVS operations are normally
conducted within 50 miles of the 154 Postal Service facilities with PVS operations. PVS
drivers travel about 150 million miles every year. Because PVS operations are local,
district, area, and headquarters transportation officials manage them at the facility level.

PVS is capital and personnel intensive. Nationwide, PVS capital assets include
approximately 2,180 cargo vans, 1,840 tractors, and 4,070 trailers. Employees service
and repair these vehicles at 309 Postal Service vehicle maintenance facilities (VMFs),
VMF auxiliaries, 9 and local commercial garages nationwide. PVS currently involves
about 8,900 employees, including 7,360 drivers, 598 administrative support personnel,
and 932 managers. The American Postal Workers Union represents PVS drivers and
support personnel.

PVS operations typically include:

     Transportation to and from major facilities or local Post Offices.
     Transportation to and from major commercial business mailers.
     Yard operations, defined as the movement of trailers and equipment in or around a
      facility yard.

Objectives, Scope, and Methodology

Our objectives were to determine whether selected PVS vehicle operations were
effective and economical. We conducted this performance audit from December 2010
through July 2011 in accordance with generally accepted government auditing
standards and included such tests of internal controls as we considered necessary
under the circumstances. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objective. We discussed our observations and conclusions with management on June 2,
2011, and included their comments where appropriate.

Using Postal Service computer-generated data and other records, we analyzed
92 Baltimore P&DC driver schedules, identified 189,329 annual workhours associated
with those schedules, and evaluated individual trips and trip load volume. We conducted
9
    Extension of a VMF.


                                                 6
Postal Vehicle Service Transportation Routes –                                NL-AR-11-004
 Baltimore Processing and Distribution Center


the analysis to determine whether management could reduce workhours and labor
costs. As part of our review, we analyzed driver assignments and determined whether
drivers made duplicate or unproductive trips. We also reviewed the fuel reduction
initiatives for Postal Service-owned vehicles as contained in the fiscal year (FY) 2010
Strategic Sustainability Performance Plan and determined whether our
recommendations impacted the initiatives.

We noted several weaknesses in the computer-generated data that limited our work.
For example, some computer records were missing data and had inaccurate load
volumes. Although these limitations constrained our work, we were able to compensate
by applying alternate audit procedures, including observation, physical inspection, and
discussion with appropriate officials. We also applied conservative principles to our
workhours and cost-reduction estimates.




                                                 7
Postal Vehicle Service Transportation Routes –                                  NL-AR-11-004
 Baltimore Processing and Distribution Center


Prior Audit Coverage

At the request of the vice president, Network Operations Management, the OIG has
worked with the Postal Service to reduce PVS costs. As indicated in the following chart,
since March 2007, we have issued numerous audit reports that identified labor and
other potential savings of $145.8 million. Management agreed with all of our
recommendations. This report used the same methodology and had comparable
findings.

                                                                  Final       Monetary
                                                                 Report        Impact
             Report Title                   Report Number         Date      (In millions)
  Postal Vehicle Service
  Transportation Routes –
                                                 NL-AR-07-003   3/30/2007           $7.3
  Memphis Processing and
  Distribution Center
  Postal Vehicle Service
  Transportation – Los Angeles                   NL-AR-07-006   9/21/2007             4.9
  Bulk Mail Center
  Postal Vehicle Service
  Transportation Routes –
                                                 NL-AR-07-007   9/27/2007             4.0
  Milwaukee Processing and
  Distribution Center
  PVS Vehicle Service
  Transportation Routes – San
                                                 NL-AR-08-003   3/26/2008           10.1
  Francisco Processing and
  Distribution Center
  Postal Vehicle Service
  Transportation Routes –
                                                 NL-AR-08-006   9/25/2008             8.0
  Northern Virginia Processing
  and Distribution Center
  Postal Vehicle Service
  Transportation Routes –
                                                 NL-AR-09-001   2/13/2009             9.3
  Minneapolis Processing and
  Distribution Center
  Postal Vehicle Service
  Transportation Routes –                        NL-AR-09-005   7/17/2009             4.3
  Philadelphia Bulk Mail Center
  Postal Vehicle Service
  Transportation Routes –
                                                 NL-AR-09-006   7/20/2009             5.4
  Philadelphia Processing and
  Distribution Center




                                                     8
Postal Vehicle Service Transportation Routes –                                      NL-AR-11-004
 Baltimore Processing and Distribution Center


     Postal Vehicle Service
     Transportation Routes –
                                                        NL-AR-10-002   12/28/2009       18.3
     Cardiss Collins Processing and
     Distribution Center
     Postal Vehicle Service
     Transportation Routes –
                                                        NL-AR-10-006   7/14/2010         4.8
     Southern Maryland Processing
     and Distribution Center
     Postal Vehicle Service
     Transportation Routes –
                                                        NL-AR-10-007    8/4/2010         2.8
     Washington Network
     Distribution Center
     Postal Vehicle Services –
     Scheduling and Staffing –                          NL-AR-10-008   9/29/2010        40.1
     Atlanta District
     Postal Vehicle Service
     Transportation Routes –
                                                        NL-AR-11-001   1/13/2011         6.5
     Suburban Maryland Processing
     and Distribution Center
     Connecticut Valley District –
                                                        NL-AR-11-002   3/18/2011        19.9
     PVS Scheduling and Staffing
     Total                                                                          $145.8 10




10
     Total in chart slightly higher due to rounding difference.


                                                                  9
Postal Vehicle Service Transportation Routes –                                                       NL-AR-11-004
 Baltimore Processing and Distribution Center


                                    Appendix B: Monetary Impact

Excess Workhours and Associated Cost Reductions Findings: We employed a 10-year
cash flow methodology, discounted to present value, by applying the following factors
published by Postal Service Headquarters Finance.

                         FY 2011 11          FY 2012           10-Year Total
 Cost Category             Total             (Annual)          (FYs 2011 to
                        (Phased In)            Total              2020)                 Percentage
Personnel                  $209,539          $834,557              $7,121,257                 98.2%
Fuel                          8,592              8,528                 83,095                  1.1%
Damage Claims                 5,286              5,206                 49,395                  0.7%
Total                      $223,417          $848,291            $7,253,747 12               100.0%

                 Rates Rates by Type 13 Type                                Factor
              Discount Rate/Cost of Borrowing                               3.875%
              Labor Escalation Rate                                          1.7%
              Fuel Cost Escalation Rate                                      3.1%
              Tort Cost Claim Escalation Rate                                2.3%
Cost Reductions for HCRs Finding. To calculate the months remaining in HCR
contracts, we used actual months as of a specified date. If the months remaining were
less than 1 year, we used the number of months in the renewal contract.

                                                                     Annual
        Recommended               Contract          Number                              Estimated
                                                                      Miles
          Reduction               Number            of Trips                            Savings 14
                                                                    Reduced
                                    21015               4            55,604              $218,727
                                    21033              12           114,300               517,413
         Agreed to by
                                    21035               2            20,003                60,630
         Management
                                    21040               2            12,598                69,999
                                    210L1               4            13,297               120,090
      Total                                            24           215,801              $986,859




11
   The FY 2011 figure is conservative to allow for phase-in of workhour reductions during the year.
12
   Impact Category: Funds put to better use are funds that could be used more efficiently by implementing
recommended actions.
13
   Rates published May 7, 2010.
14
   Estimated savings are based on the remaining value of existing contracts and are negotiated between the Postal
Service and their suppliers.


                                                        10
Postal Vehicle Service Transportation Routes –                   NL-AR-11-004
 Baltimore Processing and Distribution Center



                             Appendix C: Management’s Comments




                                                 11
Postal Vehicle Service Transportation Routes –        NL-AR-11-004
 Baltimore Processing and Distribution Center




                                                 12
